No. 19-515

In the Supreme Court of the United States
BALDASSARE AMATO, PETITIONER
v.
UNITED STATES OF AMERICA
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

BRIEF FOR THE UNITED STATES IN OPPOSITION

NOEL J. FRANCISCO
Solicitor General
Counsel of Record
BRIAN A. BENCZKOWSKI
Assistant Attorney General
DANIEL J. KANE
Attorney
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

QUESTIONS PRESENTED

1. Whether the rule of automatic reversal in Holloway v. Arkansas, 435 U.S. 475 (1978), applies when
neither the defendant nor defense counsel objects to an
asserted conflict of interest and the asserted conflict
does not involve counsel’s joint representation of codefendants.
2. Whether the court of appeals erred in determining that petitioner failed to demonstrate that his attorney labored under an actual conflict of interest.
3. Whether the district court abused its discretion in
declining to hold an evidentiary hearing on petitioner’s
motion to vacate his sentence.

(I)

ADDITIONAL RELATED PROCEEDINGS

United States District Court (E.D.N.Y.):
United States v. Amato, No. 03-cr-1382 (Oct. 27, 2006)
Amato v. United States, No. 11-cv-5355 (Apr. 6, 2017)
United States Court of Appeals (2d Cir.):
United States v. Amato, No. 06-5117 (Jan. 12, 2009)
United States v. Basile, No. 06-1882 (Aug. 19, 2008)
(appeal of co-defendant)
Amato v. United States, No. 17-1782 (Feb. 27, 2019)
Supreme Court of the United States:
LoCurto v. United States, No. 09-5503 (Oct. 5, 2009)
(appeal of co-defendant)
Amato v. United States, No. 09-375 (Feb. 22, 2010)

(II)

TABLE OF CONTENTS

Page
Opinions below .............................................................................. 1
Jurisdiction .................................................................................... 1
Statement ...................................................................................... 2
Argument..................................................................................... 10
Conclusion ................................................................................... 17
TABLE OF AUTHORITIES

Cases:
Cuyler v. Sullivan, 446 U.S. 335 (1980)............... 7, 13, 14, 15
Holloway v. Arkansas, 435 U.S. 475 (1978) .................... 6, 12
Mickens v. Taylor, 535 U.S. 162 (2002) ........6, 7, 9, 11, 12, 15
Moss v. United States, 323 F.3d 445 (6th Cir.),
cert. denied, 540 U.S. 879 (2003) ....................................... 13
Salts v. Epps, 676 F.3d 468 (5th Cir. 2012) ......................... 14
Schriro v. Landigran, 550 U.S. 465 (2007) ......................... 17
Strickland v. Washington, 466 U.S. 668 (1984) .......... 6, 8, 11
United States v. Díaz-Rodríguez, 745 F.3d 586
(1st Cir. 2014) ...................................................................... 14
United States v. Williamson, 859 F.3d 843
(10th Cir. 2017), cert. denied, 138 S. Ct. 1324 (2018)....... 13
Wisniewski v. United States, 353 U.S. 901 (1957) ............. 16
Constitution and statutes:
U.S. Const. Amend. VI.................................................... 14, 16
18 U.S.C. 371 .................................................................... 2, 3
18 U.S.C. 1955 ...................................................................... 2, 3
18 U.S.C. 1962(d) ................................................................. 2, 3
28 U.S.C. 2255 ................................................................ 2, 5, 13

(III)

In the Supreme Court of the United States
No. 19-515
BALDASSARE AMATO, PETITIONER
v.
UNITED STATES OF AMERICA
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

BRIEF FOR THE UNITED STATES IN OPPOSITION

OPINIONS BELOW

The order of the court of appeals (Pet. App. 1a-11a)
is not published in the Federal Reporter but is reprinted at 763 Fed. Appx. 21. The order of the district
court (Pet. App. 14a-89a) is not published in the Federal
Supplement but is available at 2017 WL 1293801.
JURISDICTION

The judgment of the court of appeals was entered on
February 27, 2019. A petition for rehearing was denied
on May 20, 2019 (Pet. App. 90a). On August 16, 2019,
Justice Ginsburg extended the time within which to file
a petition for a writ of certiorari to and including October 17, 2019, and the petition was filed on that date. The
jurisdiction of this Court is invoked under 28 U.S.C.
1254(1).

(1)

2
STATEMENT

Following a jury trial in the United States District
Court for the Eastern District of New York, petitioner
was convicted on one count of conspiracy to engage in
racketeering, in violation of 18 U.S.C. 1962(d); two
counts of engaging in an illegal gambling business, in
violation of 18 U.S.C. 1955; and one count of conspiracy
to engage in an illegal gambling business, in violation of
18 U.S.C. 371. Judgment 1. The district court sentenced
petitioner to life imprisonment. Judgment 2. The court
of appeals affirmed, 306 Fed. Appx. 630, and this Court
denied a petition for a writ of certiorari, 559 U.S. 962.
In 2011, petitioner filed a motion to vacate his sentence
pursuant to 28 U.S.C. 2255. See C.A. App. 7-51. The district court dismissed the motion, Pet. App. 14a-89a, but
granted a certificate of appealability as to petitioner’s
claims of ineffective assistance of counsel, id. at 12a13a. The court of appeals affirmed. Id. at 1a-11a.
1. For more than 40 years, petitioner was a “made”
member of the Bonanno crime family, a criminal organization and part of La Cosa Nostra operating in the
United States and Canada. Gov’t C.A. Br. 3-4; Trial Tr.
295-296, 335-336; Presentence Investigation Report
(PSR) ¶¶ 14, 18. In that role, petitioner participated in
a variety of crimes including murders, armed robbery,
and illegal gambling operations. Gov’t C.A. Br. 4; Trial
Tr. 340, 983, 1212-1213, 1320-1325; PSR ¶¶ 49-51, 59-60,
68-76, 85-87. In particular, petitioner was involved in
the 1992 murders of two associates of the Bonanno family: Sebastiano DiFalco and Robert Perrino. See Gov’t
C.A. Br. 5-10. Petitioner ordered DiFalco’s murder following a dispute over money. Id. at 5; Trial Tr. 1288,
1295-1305; PSR ¶¶ 68-72. Shortly thereafter, DiFalco’s

3
decomposed body was found in the trunk of his daughter’s car. Gov’t C.A. Br. 6; Trial Tr. 1693-1698, 27432746; PSR ¶ 72. Petitioner subsequently shot Perrino
based on concerns that he might cooperate with law enforcement. Gov’t C.A. Br. 9-10; Trial Tr. 313-321, 330;
PSR ¶¶ 73-76. Perrino survived the shooting, but another Bonanno associate tasked with cleaning up the
scene killed Perrino by plunging an ice pick into his ear.
Gov’t C.A. Br. 9-10; Trial Tr. 2185-2187; PSR ¶ 76.
In 2004, a federal grand jury in the Eastern District
of New York returned a superseding indictment charging petitioner and 26 other members of the Bonanno
crime family with a variety of offenses stemming from
the organization’s criminal activities. Superseding
Indictment 1-52. Petitioner was charged with one count
of conspiracy to engage in racketeering, in violation of
18 U.S.C. 1962(d); two counts of engaging in an illegal
gambling business, in violation of 18 U.S.C. 1955; and
one count of conspiracy to engage in an illegal gambling
business, in violation of 18 U.S.C. 371. Superseding
Indictment 7-43. Among the predicate acts alleged to
have been committed as part of the racketeering conspiracy were the murders of (and conspiracies to murder) DiFalco and Perrino. Id. at 29-30.
2. Two years later, petitioner retained Diarmuid
White as defense counsel. Pet. App. 3a; 03-cr-1382
D. Ct. Doc. 577 (Jan. 9, 2006). Along with his notice of
appearance, White filed a letter notifying the district
court of his prior, pre-trial representation of Joseph
Massino, the former “boss” of the Bonanno family, who
had since become a cooperating witness for the government. Pet. App. 3a; C.A. App. 135-138. White explained
that his representation of Massino had lasted only eight
months, during which White assisted Massino’s lead

4
counsel by making discovery requests, facilitating jail
visits, moving to consolidate two indictments, and opposing the government’s motion to disqualify counsel.
C.A. App. 136-137. White could “recall no material information or confidences and secrets conferred upon
[him] by Massino,” and represented that if Massino
were called at petitioner’s trial, “which [was] by no
means certain,” White’s co-counsel would conduct any
cross-examination. Id. at 135-136. White concluded
that “there [wa]s no ‘serious potential conflict’ in [his]
representing petitioner, and likely no potential conflict
at all.” Id. at 137. And White explained that, in any
event, “any potential conflict of interest [wa]s clearly
waivable,” and that petitioner was prepared to make any
necessary waiver at a hearing before the district court.
Id. at 135-136.
At a status conference later that month, the government explained that Massino was a potential witness
and that Massino’s current counsel had not indicated
whether Massino was willing to waive any privileges or
duties arising from White’s prior representation. Pet.
App. 18a; Gov’t C.A. App. 64. The government argued
that unless Massino was willing to waive those privileges and duties, White should be disqualified from
serving as petitioner’s counsel. Ibid.
Following the conference, White notified the district
court in a second letter that petitioner could not afford
to retain a second attorney and thus White would, if necessary, cross-examine Massino himself. Pet. App. 4a,
19a; C.A. App. 139-140. White stated, however, that he
would not do so on the basis of any privileged communication unless Massino waived the privilege, and he
maintained that this development “[did] not render any
potential conflict of interest unwaivable.” C.A. App.

5
139. He reiterated that petitioner was prepared to
make any necessary waivers. Id. at 140.
The district court did not hold a hearing to inquire
further into any potential conflict of interest, and neither party informed the court as to whether Massino
had waived any privileges or duties arising from White’s
representation. Pet. App. 4a, 19a. Before trial, however, the government indicated that it would not call
Massino as a witness. Id. at 19a; Gov’t C.A. App. 87.
Petitioner and two co-defendants proceeded to a sixweek jury trial, during which Massino was not called as
a witness. Pet. App. 4a. When the government attempted to elicit from a co-conspirator a statement by
Massino that petitioner arranged for DiFalco’s murder,
White objected and requested an evidentiary hearing at
which Massino would testify as to the basis of his
knowledge. Id. at 24a; Trial Tr. 385-387. The district
court overruled the objection. Pet. App. 25a; Trial Tr.
388. White thereafter impeached Massino’s credibility
through the testifying co-conspirator, including by eliciting that Massino had committed “many crimes” and
had previously lied about murders. Trial Tr. 403-406.
Petitioner was convicted on all charges. Pet. App.
4a. As part of its verdict, the jury found that the government had proved petitioner guilty of the DiFalco and
Perrino murders. Ibid.; Trial Tr. 4102-4106. The district court sentenced petitioner to life imprisonment,
Judgment 2, and the court of appeals affirmed, 306 Fed.
Appx. 630. This Court denied certiorari. 559 U.S. 962.
3. a. In 2011, petitioner, represented by a new attorney, filed a motion to vacate his sentence pursuant to
28 U.S.C. 2255. C.A. App. 7-51. Petitioner argued that
he had received ineffective assistance of counsel at trial
and on appeal because White operated at all times

6
under an actual conflict of interest due to his prior representation of Massino. Id. at 18-51.
At the district court’s request, White filed a declaration in connection with petitioner’s application. C.A.
App. 534-535; see Pet. App. 42a. White stated that he
had “no recollection” of any information learned while
representing Massino and was “unable to identify information obtained from Mr. Massino that could have been
used in support of [petitioner’s] defense.” C.A. App.
535. White added that he could “not recall a specific
reason” for not calling Massino as a defense witness
“other than,” he “imagine[d],” “maintaining focus on the
reliability, veracity and consistency of the prosecution
witnesses.” Ibid.
b. The district court denied petitioner’s request for
an evidentiary hearing and dismissed the motion. Pet.
App. 14a-89a.
The district court explained that a defendant alleging ineffective assistance of counsel ordinarily must establish both that his attorney’s performance was inadequate and that he suffered prejudice as a result. Pet.
App. 43a-44a (citing Strickland v. Washington, 466 U.S.
668 (1984)). The court acknowledged that, under Holloway v. Arkansas, 435 U.S. 475 (1978), automatic reversal is required when defense counsel “protest[s] his
inability” to represent multiple defendants simultaneously. Pet. App. 45a-46a (quoting Mickens v. Taylor,
535 U.S. 162, 173 (2002)). But it determined that this
case did not present any such circumstance. Although
petitioner argued that White had “object[ed]” to the
representation here, the court observed that not only
had White not protested his representation of petitioner, he had maintained that any potential conflict

7
arising from his prior representation was “clearly waivable” and that petitioner was prepared to make any
necessary waiver. Id. at 46a (citations omitted).
The district court further determined that petitioner
was not entitled to a presumption of prejudice under
Cuyler v. Sullivan, 446 U.S. 335 (1980). The court explained that such a presumption is appropriate if defense counsel labored under an actual conflict of interest
—i.e., a conflict that adversely affected defense counsel’s performance, as opposed to a “mere theoretical
division of loyalties.” Pet. App. 47a (quoting Mickens,
535 U.S. at 171). Under Second Circuit precedent, the
court explained, such a conflict may be established
where “some plausible alternative defense strategy or
tactic might have been pursued, and the alternative defense was inherently in conflict with or not undertaken
due to the attorney’s other loyalties or interests.” Id. at
47a (citation omitted). But the court found that, even
assuming White had declined to pursue plausible defense strategies, those strategies were not inherently in
conflict with White’s ethical obligations to Massino. Id.
at 49a-62a.
The district court explained that White’s obligations
to his former client Massino included (1) not revealing
or using the former client’s confidential information to
the disadvantage of the former client; and (2) not representing a new client in a related matter in which the new
client’s interests are “materially adverse to the interests of the former client.” Pet. App. 51a (citation omitted). The court found that petitioner failed to allege—
and the record did not reveal—any pertinent information that White learned from Massino that was or
could have been used to petitioner’s benefit. Id. at 52a53a. And the court determined that petitioner also

8
failed to establish that his interests materially diverged
from Massino’s in this case. Id. at 56a-62a. It reasoned
that, as long as Massino was truthful, White could have
called on him to testify in petitioner’s favor without
jeopardizing Massino’s cooperation agreement. Id. at
57a-58a. It rejected petitioner’s “purely speculative”
argument that White might have suborned perjury had
he called Massino to testify. Id. at 58a-59a. And it rejected petitioner’s contention that calling Massino to
testify might have revealed other crimes Massino had
committed, observing that petitioner failed to allege
that either he or White actually knew of any undisclosed
crimes and that, in any event, Massino would have been
entitled to invoke the privilege against self-incrimination
had he testified. Id. at 59a-60a.
Finally, the district court determined that petitioner
could not establish that he received ineffective assistance of counsel under Strickland v. Washington, supra, based on the asserted conflict of interest or otherwise. Pet. App. 63a-83a. As relevant here, the district
court found that White reasonably opted to attack the
credibility of the cooperating witnesses rather than call
Massino to the stand and risk the possibility that he
would corroborate the government’s case against petitioner. Id. at 63a-66a. The court rejected petitioner’s
speculation that Massino would have testified in petitioner’s favor based on notes that Massino had made in
preparing for his own trial, in which Massino denied
saying that petitioner had arranged for the DiFalco
murder. Id. at 65a. The court reasoned that it was “eminently possible” that Massino had repudiated those
notes since becoming a cooperating witness, and would
offer only inculpatory testimony. Ibid.

9
The district court also denied petitioner’s request for
an evidentiary hearing. Pet. App. 79a-82a. The court
observed that petitioner had failed to identify the specific facts to be adjudicated at a hearing, instead requesting a hearing “on all issues,” id. at 80a (citation
omitted), and that petitioner’s claims concerning
White’s obligations to Massino were based not on concrete allegations but “airy generalities, conclusory assertions and hearsay statements,” id. at 81a (brackets
and citation omitted). The court also noted that, to the
extent that petitioner raised factual questions regarding White’s knowledge and intent, it had already
expanded the record through White’s declaration,
which indicated that White would have nothing to add if
called to testify. Id. at 82a.
c. In a separate order, the district court granted
petitioner a certificate of appealability as to his claims
of ineffective assistance of counsel. Pet. App. 12a-13a.
4. The court of appeals affirmed in an unpublished
summary order. Pet. App. 1a-11a.
The court of appeals agreed with the district court
that petitioner was not entitled to automatic reversal
under Holloway. Pet. App. 6a-7a. It reasoned that unlike in Holloway, White was not “forced to represent
codefendants over his timely objection.” Id. at 6a (quoting Mickens, 535 U.S. at 168). The court of appeals observed that White, in fact, “affirmatively argued that
any potential conflict was waivable, and repeatedly
affirmed [petitioner’s] willingness to waive.” Ibid. And
it noted that White did not represent petitioner and
Massino concurrently, but had stopped representing
Massino more than two years before his representation
of petitioner began. Ibid.

10
The court of appeals also agreed with the district
court that petitioner had not established an actual conflict of interest that adversely affected White’s performance. Pet. App. 7a-9a. The court of appeals reasoned
that, even assuming a conflict of interest existed based
on White’s successive representation of Massino and
petitioner, petitioner had failed to show that the alleged
conflict caused White to forgo a plausible defense strategy, as “nothing in the record * * * suggest[s] that such
plausible alternative options existed.” Id. at 9a; see id.
at 8a-9a. Specifically, the court reasoned that calling
Massino as a witness was not a plausible alternative
strategy because it was “much more likely” that Massino, a government cooperator, would offer testimony
damaging to petitioner’s case even if confronted with
his pre-cooperation notes. Id. at 8a. The court observed
that White had instead “vigorously cross-examined” petitioner’s co-conspirator regarding Massino’s earlier
statements and had elicited testimony regarding Massino’s “crimes and general untrustworthiness.” Ibid.
Finally, the court of appeals found that the district
court had not abused its discretion in denying petitioner
an evidentiary hearing. Pet. App. 10a-11a. The court of
appeals reasoned that “given the existing record and
White’s sworn statement to the court addressing the petition’s claims, there was a sufficient basis to find that
[petitioner] failed to assert a plausible claim for ineffective assistance of counsel.” Id. at 11a.
ARGUMENT

Petitioner contends (Pet. 11-17) that he is entitled to
automatic reversal of his convictions on the theory that
the district court failed to inquire adequately into an asserted conflict of interest. Alternatively, he contends
(Pet. 28-33) that his convictions must be vacated on the

11
theory that his attorney labored under an actual conflict
of interest. Finally, he contends (Pet. 19-28) that he was
entitled to an evidentiary hearing on his motion to vacate his sentence. The court of appeals correctly rejected each contention, and its decision does not conflict
with any decision of this Court or of another court of
appeals. Further review is unwarranted.
1. Petitioner first contends (Pet. 11-17) that he is entitled to automatic reversal of his convictions based on
the district court’s allegedly inadequate inquiry into an
asserted conflict of interest based on White’s prior representation of Massino. The court of appeals correctly
rejected that contention, and its determination does not
warrant this Court’s review.
The right to the assistance of counsel exists “because
of the effect it has on the ability of the accused to receive
a fair trial.” Mickens v. Taylor, 535 U.S. 162, 166 (2002)
(citation omitted). Accordingly, “defects in assistance
that have no probable effect upon the trial’s outcome do
not establish a constitutional violation.” Ibid. Therefore, “[a]s a general matter, a defendant alleging a Sixth
Amendment violation must demonstrate ‘a reasonable
probability that, but for counsel’s unprofessional errors,
the result of the proceeding would have been different.’ ” Ibid. (quoting Strickland v. Washington, 466 U.S.
668, 694 (1984)). A defendant is relieved of the need to
demonstrate prejudice only in a narrow set of cases in
which “the likelihood that the verdict is unreliable is so
high that a case-by-case inquiry is unnecessary.” Ibid.
With respect to conflicts of interests, this Court explained in Mickens that defendants may obtain automatic reversal in one circumstance: when “defense
counsel [was] forced to represent codefendants over his
timely objection, unless the trial court has determined

12
that there is no conflict.” 535 U.S. at 168 (discussing
Holloway v. Arkansas, 435 U.S. 475 (1978)). This Court
has stated that the presumption of prejudice in such circumstances reflects, in part, the fact that “a defense attorney is in the best position to determine when a conflict exists,” and “his declarations to the court are ‘virtually made under oath.’ ” Id. at 167-168 (quoting Holloway, 435 U.S. at 486). It is “justified because joint
representation of conflicting interests is inherently suspect, and because counsel’s conflicting obligations to
multiple defendants ‘effectively sea[l] his lips on crucial
matters’ and make it difficult to measure the precise
harm arising from counsel’s errors.” Id. at 168 (quoting
Holloway, 435 U.S. at 490) (brackets in original). That
rule has no application here.
Petitioner contends (Pet. 11-15) that he is entitled to
automatic reversal under Holloway because the trial
court had “notice of the conflicts under which White was
operating” through White’s letters and the government’s objection and did not “affirmatively act to ensure
the integrity of the process.” Pet. 15. But this Court in
Mickens rejected a “rule of automatic reversal when[ever] there existed a conflict that did not affect counsel’s performance, but the trial judge failed to” inquire
into the propriety of the representation. 535 U.S. at
172; see id. at 170-172 & n.3. Instead, the Court explained that Holloway “creates an automatic reversal
rule only where defense counsel is forced to represent
codefendants over his timely objection, unless the trial
court has determined that there is no conflict.” Id. at
168 (emphasis added).
Here, White notified the district court of his prior
representation of Massino, but he did not object to representing petitioner. To the contrary, he informed the

13
court that he saw “likely no potential conflict at all.”
C.A. App. 137. To the extent that he sought a hearing,
it was only to establish that he could remain petitioner’s
counsel and permit petitioner to make any necessary
waiver. See Pet. App. 3a-4a. Moreover, he did not represent petitioner and Massino concurrently, but instead
completed his brief representation of Massino more
than two years before being retained by petitioner. Id.
at 6a-7a. And he represented to the district court before
trial and during the Section 2255 proceedings that he
did not recall any information learned during the earlier
representation that could have been used in support of
petitioner’s defense. C.A. App. 135-138, 534-535. As the
lower courts recognized, automatic reversal is not warranted in these circumstances.
Petitioner errs in suggesting (Pet. 16) that four
courts of appeals have held that “once an objection to a
conflict, whether concurrent or successive, is brought to
the court’s attention from any source, the failure by the
court to inquire further or take adequate steps to ensure conflict-free counsel requires automatic reversal.”
Two of the four decisions petitioner cites expressly
declined to apply an automatic-reversal rule, instead reviewing and rejecting the defendants’ requests for
vacatur of their convictions under the actual-conflict
standard from Cuyler v. Sullivan, 446 U.S. 335 (1980).
See United States v. Williamson, 859 F.3d 843, 856-857
(10th Cir. 2017), cert. denied, 138 S. Ct. 1324 (2018)
(considering potential conflict based on defense attorney’s relationship with prosecutor); Moss v. United
States, 323 F.3d 445, 463-471 (6th Cir.), cert. denied,
540 U.S. 879 (2003) (considering potential conflict based
on defense attorney’s representation of co-defendants
during different stages of the same proceedings). A

14
third decision, United States v. Díaz-Rodríguez, 745 F.3d
586 (1st Cir. 2014), concerned a breakdown in an attorney-client relationship, not a conflict of interest, and the
court expressly noted that the government had waived
any argument that the defendant had failed to establish
prejudice. Id. at 591-592 & n.8. And although the fourth
decision did involve the automatic reversal of the defendants’ convictions based on their timely objection to
concurrent representation, the court of appeals did not
address whether the same rule would apply to a successive representation to which neither the defendant nor
defense counsel objects. See Salts v. Epps, 676 F.3d
468, 480-483 (5th Cir. 2012).
2. Petitioner next contends (Pet. 28-33) that his convictions must be vacated under Cuyler v. Sullivan,
supra, because he demonstrated an actual conflict of interest that adversely affected his defense. Petitioner
urges (Pet. 17-19) this Court to review whether the actualconflict standard from Sullivan applies to cases of successive representation. But the court of appeals here did
apply the Sullivan standard, and it correctly determined
that petitioner had not established an actual conflict of
interest that affected White’s performance. Petitioner’s
factbound objections to the application of petitioner’s own
preferred standard do not warrant this Court’s review.
And because petitioner did not prevail even under the
standard he advocates, this case would be an unsuitable
vehicle for resolving any conflict among the courts of
appeals concerning the proper standard governing cases
of successive representation.
This Court has reserved the question whether a
showing of an actual conflict based on successive (as
opposed to concurrent) representations suffices to demonstrate a Sixth Amendment violation, or whether a

15
defendant must still show prejudice to the outcome of
the trial to establish a claim in those circumstances. See
Sullivan, 446 U.S. at 350; Mickens, 535 U.S. at 175-176.
The court of appeals applied the actual-conflict standard to the successive representations at issue here, and
correctly determined that petitioner had not established an adverse effect on his defense. Pet. App. 7a-9a;
see id. at 47a-62a (district court applying the same
standard and reaching the same conclusion).
Although the Sullivan standard does not require “a
showing of probable effect upon the outcome of trial,” it
does require “a showing of defective performance.”
Mickens, 535 U.S. at 174; see Sullivan, 446 U.S. at 350.
The court of appeals found that petitioner could not
demonstrate that White’s alleged conflict of interest
caused him to forgo a plausible alternative defense
strategy because nothing in the record suggested
that any plausible alternative strategies existed. Pet.
App. 7a-9a. The court specifically rejected petitioner’s
argument—renewed in his petition (Pet. 31-32)—that
White could have called Massino as a witness and used
his notes regarding the DiFalco murder to impeach his
credibility, as Massino, a government cooperator, was
“much more likely” to offer testimony damaging to
petitioner. Pet. App. 8a. * That factbound determination does not warrant this Court’s review.
Petitioner repeatedly suggests that White “stipulated” to the
exclusion of Massino’s notes. See, e.g., Pet. 10, 22, 31. White initially
suggested only that he would refrain from referring to the notes if
Massino did not testify, and he did not even adhere to that initial
suggestion. See Pet. App. 23a. Instead, he later argued on petitioner’s behalf that the notes would be admissible if Massino’s statement regarding the DiFalco murder were admitted through a testifying co-conspirator. See ibid.
*

16
Petitioner contends that the court of appeals misapplied its own precedent by not considering whether any
of petitioner’s proffered defense strategies were “inherently in conflict with [White’s] other loyalties and
duties.” Pet. 29 (emphasis omitted). But the court
found that no plausible alternative strategies existed,
Pet. App. 9a, and therefore had no occasion to consider
whether any such strategies conflicted with White’s
pre-existing duties. See also id. at 49a-62a (district
court assuming that petitioner had alleged plausible alternative strategies but finding that none was inherently in conflict with White’s obligations to Massino). In
any event, this Court does not grant review to resolve
intra-circuit conflicts. See Wisniewski v. United States,
353 U.S. 901, 902 (1957) (per curiam).
Petitioner does not suggest that any other court of
appeals would have found a Sixth Amendment violation
under Sullivan’s actual-conflict standard on the facts
here. Instead, he contends (Pet. 17-19) that a conflict
exists among the courts of appeals on whether the actualconflict standard applies to successive representations.
In this case, however, the court of appeals applied the
actual-conflict standard that petitioner advocates, and
determined that petitioner was not entitled to relief
even under that standard. See Pet. App. 7a-9a. This
case therefore would be an unsuitable vehicle for resolving any disagreement in the lower courts on the proper
standard.
3. Finally, petitioner renews his contention (Pet. 1928) that the district abused its discretion in declining his
request for an evidentiary hearing on his motion to vacate his sentence. He argues (Pet. 22) that he was “denied the tools to adduce the relevant facts through sub-

17
poena power and live testimony.” But as petitioner recognizes (Pet. 23), White provided the district court with
a declaration stating that he could not recall any confidential information provided to him by Massino or any
reasons why he decided not to call Massino other than
“maintaining focus on the reliability, veracity and consistency of the prosecution witnesses.” C.A. App. 535.
Under those circumstances, when the relevant witness
has indicated that he has no further information to provide, holding an evidentiary hearing would have little
value, particularly given that “the judge who tried the
underlying proceedings also preside[d] over [the]
§ 2255 motion.” Pet. App. 11a (citation omitted); see,
e.g., Schriro v. Landigran, 550 U.S. 465, 474 (2007) (“In
deciding whether to grant an evidentiary hearing, a federal court must consider whether such a hearing could
enable an applicant to prove the petition’s factual allegations, which, if true, would entitle the applicant to
federal habeas relief.”). The court of appeals’ decision
affirming the district court’s factbound determination
does not warrant further review.
CONCLUSION

The petition for a writ of certiorari should be denied.
Respectfully submitted.
NOEL J. FRANCISCO
Solicitor General
BRIAN A. BENCZKOWSKI
Assistant Attorney General
DANIEL J. KANE
Attorney

DECEMBER 2019

